<html>
<title> - DEFERRED MAINTENANCE AND OPERATIONAL NEEDS OF THE NATIONAL PARK SERVICE</title>
<body><pre>[Senate Hearing 115-512]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-512

                    DEFERRED MAINTENANCE AND OPERATIONAL 
                     NEEDS OF THE NATIONAL PARK SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2018

                               __________
                                                              

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
               
              
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-773                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------            
              
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Michelle Lane, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

McDowall, Lena, Deputy Director for Management and 
  Administration, National Park Service, U.S. Department of the 
  Interior.......................................................     5
Shafroth, Will, President & CEO, National Park Foundation........    12
Berejka, Marc, Director, Government & Community Affairs, 
  Recreational Equipment, Inc. (REI Co-op).......................    18
Leonard, Sarah, President & CEO, Alaska Travel Industry 
  Association....................................................    24
Regan, Shawn, Research Fellow and Director of Publications, 
  Property and Environment Research Center (PERC)................    30
Ring, Richard G., Member, Executive Council, The Coalition to 
  Protect America's National Parks...............................    42

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Berejka, Marc:
    Opening Statement............................................    18
    Written Testimony............................................    20
    Responses to Questions for the Record........................    81
Cantwell, Hon. Maria:
    Opening Statement............................................     3
Leonard, Sarah:
    Opening Statement............................................    24
    Written Testimony............................................    26
McDowall, Lena:
    Opening Statement............................................     5
    Written Testimony............................................     8
    Responses to Questions for the Record........................    71
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Trust for Historic Preservation:
    Letter for the Record........................................    92
(The) Pew Charitable Trusts:
    Letter for the Record........................................    97
Regan, Shawn:
    Opening Statement............................................    30
    Written Testimony............................................    32
    Responses to Questions for the Record........................    83
Ring, Richard G.:
    Opening Statement............................................    42
    Written Testimony............................................    44
    Responses to Questions for the Record........................    89
Shafroth, Will:
    Opening Statement............................................    12
    Written Testimony............................................    14
    Responses to Questions for the Record........................    79

 
                        DEFERRED MAINTENANCE AND
                        OPERATIONAL NEEDS OF THE
                         NATIONAL PARK SERVICE

                              ----------                              


                        TUESDAY, APRIL 17, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, the Committee will come to 
order.
    We are here to examine a priority for members on both sides 
of the Committee and that is deferred maintenance and the 
operational needs of the National Park Service.
    As the agency moves into its second century, the deferred 
maintenance backlog, which now stands at $11.6 billion, is one 
of the most significant challenges to its ability to provide 
quality visitor experiences. Today we will take a deeper dive 
into what that number means, how we got here and what Congress, 
the Department of the Interior and stakeholders can do to 
address it.
    We can all relate to deferred maintenance in national 
parks. It is, perhaps, a little bit of what we might experience 
in our own homes, on obviously a much broader scale however. We 
all have a list of things that need patching or updating 
whether it is a leaky faucet, old carpet, a roof that is in 
pretty tough shape. But deferred maintenance, I think we 
recognize, is more than just that, because the problem has gone 
on for so long. It is now the sink that no longer works because 
of a failure in the plumbing line, the carpet that is worn 
through to the subfloor and the roof now with gaping holes.
    Just about every state, and for that matter just about 
every park unit, is affected by the deferred maintenance 
backlog.
    At Denali National Park, which is one of the most highly 
visited parks in my state, several bridges and culverts on the 
park road have made the deferred maintenance list as well as 
restrooms and water lines in the front country, all obviously 
very problematic. Don Striker, who is our Park Superintendent 
out there, is doing the best job that he can to manage them. 
But Polychrome Pass, which is the most dangerous part of the 
road, is just now being studied, and it is not on the list. I 
had an opportunity just last week to look at some pictures of 
the status and the situation of that road with heavy snows and 
a subsidence underneath it. This is a safety issue. This is a 
situation that will require more than just patching. This is a 
situation that will eventually require a rerouting of the road. 
You just cannot backfill with gravel and hope that everything 
is going to be okay.
    For those who have not had an opportunity to visit Denali, 
this is a spectacular part of the park. But the road is not a 
lane-and-a-half, it is barely a lane. When you are in a bus it 
seems like it is less than a lane, and the drop down is not 
quite a ninety-degree angle; I think it was described as a 
seventy- or an eighty-degree angle. But when you are on it, it 
is breathtaking, not because of the beauty but because you are 
holding your breath literally as you are going through this 
portion. So making sure that we address that is absolutely a 
priority.
    I certainly enjoy our national parks, I know that everyone 
on the Committee does. I have my national park passport. I am 
trying to get it full up.
    In Alaska, we have about 60 percent of the National Park 
Service acreage, total acreage, just in my state alone. We are 
all about working to protect and certainly welcome the 
contribution to our economy that our parks bring, but we also 
need to recognize that we have a multifaceted problem here and 
that it will take more than just federal dollars to resolve 
this over the long-term.
    One part of the answer is to be judicious around here, as 
we consider parks legislation. There have been some times when 
it makes sense to add to the system or to designate new units, 
but this is not always the case. Because every time, or nearly 
every time, we create a new unit, we are stretching the 
existing operations budget that much farther. In most cases, 
there are no additional dedicated funds for these units, and 
that only compounds the deferred maintenance backlog which we 
are trying to resolve.
    We can also build on the steps we have already taken. We 
dedicated $50 million from helium sales back in 2013. We have 
increased funding for the Volunteers in Parks Programs and 
authorized donor recognition in parks. In 2016, we passed the 
Centennial Act which established the Challenge Fund to finance 
signature projects and programs as well as an endowment for the 
National Park Foundation which promotes public-private 
philanthropy. Then just last month, in my section of the 
Omnibus, we included $180 million for construction and deferred 
maintenance. This was the largest ever percentage increase in 
an annual appropriations bill, and we know that money will be 
well spent.
    In addition to the work that Congress has done, this 
Administration has been very clear, since Secretary Zinke's 
confirmation hearing, that reducing the deferred maintenance 
backlog is a top priority, as it should be. The Administration 
has put forth a legislative proposal to address the backlog, 
and then last week the National Park Service announced a fee 
update. There had been one previously that generated a lot of 
concern and consternation. The Park Service took the public 
comments to heart, so what we have in front of us now is a 
proposed increase of $5 per vehicle on average. Again, I think 
that was more responsive to public comment. While fee hikes are 
never ideal, it is my understanding that all of the revenue 
from this increase will be used to address deferred maintenance 
needs in our parks, and I think that is a good thing.
    As part of our conversation today, we will talk more about 
other potential revenue sources for deferred maintenance in our 
parks, like philanthropic donations and public-private 
partnerships. We will talk about the need for a strategy to 
better prioritize routine and cyclic maintenance to prevent 
projects from becoming deferred maintenance in the first place. 
Then in the weeks ahead, we will come back and hold a 
legislative hearing, likely at the Subcommittee level, Senator 
Daines, I believe that you are the Chairman of that 
Subcommittee, and we have bills from members of this Committee, 
both Senator Portman and Senator Alexander have bipartisan 
bills, that are focused on these very important areas.
    Today, we are here to conduct oversight, to learn, to 
understand, and to raise this as a priority for action this 
year.
    I welcome all of our witnesses. I especially welcome Ms. 
Leonard, who leads the Alaska Travel Industry Association. You 
have come a long way this morning, and we appreciate you being 
here.
    But to all of you, thank you for your contributions this 
morning.
    I will now turn to Senator Cantwell for her opening 
statement.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you for 
mentioning Denali. I think between yourself and our colleague 
from Montana and the parks in Washington, that is a lot of 
dough to our economy.
    [Laughter.]
    We certainly want to do everything we can to make sure that 
we are increasing access and giving a quality experience. So 
thank you so much for holding this hearing.
    You mentioned Secretary Zinke's, what I thought, ill-
conceived proposal to raise park fees to $70. I am glad that 
the public responded to that and basically said that we were 
against it because, I think, in reality it just shows you how 
much the citizens of our country value parks and how much they 
are paying attention to this.
    I am pleased that we are having this hearing and that we 
are trying to tackle the backlog of deferred maintenance. As 
you know, we have been talking about this issue for a long time 
because we want to enhance the public's experience, we want to 
rehabilitate these buildings, and we want to make sure that 
there are park rangers there to keep the public safe.
    We know that shortfalls do really erode the user 
experience, hurt the gateway communities, or as you said, 
threaten visitors as they travel though our parks.
    We need to invest in the national parks. It is not only 
good for the outdoor economy and our citizens, but it is part 
of what helps our U.S. economy. The Bureau of Economic Analysis 
shows that it is an important opportunity, creating over $887 
billion in annual consumer spending and supporting 7.6 million 
jobs. If you look at what is the key ingredient to that 
economy, it is access to public lands, access to parks. So we 
want to continue with our investment.
    With over 330 million visitors annually, the National Park 
System is a huge outdoor economy. And according to the Park 
Service, visitors are responsible for $35 billion in economic 
output, and they spend over $18 billion a year in our gateway 
communities.
    And the number of visitors is growing. In the past decade 
alone, national park visitation was up 20 percent. I think that 
it is very important for us to understand why that happened, 
what were the drivers, and what would continue to help us grow 
that.
    The two most visited national parks in my state are no 
exception. Last year, Mount Rainier National Park had nearly 
1.4 million visitors who spent $50 million in our gateway 
communities and generated an economic benefit of $65 million. 
3.4 million visitors went to Olympic National Park and had an 
even larger economic impact. The nearby communities in the 
rural part of our state benefited with almost $287 million of 
spending. That supported over 3,800 local jobs and generated an 
economic benefit of almost $4 million. To say that this is 
important to my state is an understatement.
    That is why I am so pleased that we are joined by Marc 
Berejka, who is from REI, who will be testifying today. Just 
like REI, who gives back to their customers, I hope we will 
jointly look at our national parks as something that we give 
back to because that helps us move forward.
    As you mentioned, the Park Service is not unique in the 
inadequate investment in underfunded infrastructure. We 
certainly have a major issue with the backlog. But half of that 
backlog being roads and bridges, I hope that the Congress writ 
large can discuss why infrastructure investment inside the 
parks and outside the parks is a national priority and what we 
would be doing to increase that investment.
    Clearly, we think that increasing the investment here 
generates economic benefit. I am sure the rest of 
infrastructure thinks so as well, but I hope that there is a 
way we could continue to think about this and codify this so 
our colleagues, not here in this Committee, but those who are 
making those appropriation decisions would help us get this 
infrastructure investment for the future. We do need to make 
smart investments and we need to make sure that we are 
enhancing the visitor experience.
    One of those key drivers is the Land and Water Conservation 
Fund (LWCF) and it has supported so many enhancements to our 
national parks over the years. I know it has helped us with 
improvements as it related to Mount Rainier--just as you were 
mentioning, roads that wash out because they are not in the 
right place. Then we have to do something. Either we have to 
keep coming up with hundreds of thousands of dollars every few 
years or make the major investment to make sure that it is 
applicable to the circumstances that we are facing and, again, 
gives visitors the opportunity to get access to the parks in 
the way that we want them to.
    I know that you and I, in the Energy bill, working with our 
colleagues, made some improvements to the National Park 
Maintenance and Revitalization Conservation Fund as we tried to 
prioritize this within our legislation and within LWCF.
    I hope we will continue to work with Committee members. As 
you mentioned, there are several that are there, but I hope the 
work we did before in continuing the focus of this will help 
our colleagues see why this is such an important comprehensive 
issue to be addressed by this Committee.
    As we have been talking about, robust growth in our outdoor 
economy would provide more outdoor recreation, jobs, 
opportunities for all Americans and, I think, continuing to 
focus on this would help us move forward. I know that during 
the Eisenhower era, they had a Mission 66 initiative to 
increase park funding by $1 billion over a decade. Back then 
that was really a major investment. But Mission 66 recognized 
that we needed to improve the parks and make them accessible 
for rapid growth and visitation and outdoor recreation. I feel 
that we are now at that point where we should make a similar 
major mission investment.
    I look forward to working with you and other members of 
this Committee on this important issue.
    Thank you.
    The Chairman. Thank you, Senator Cantwell.
    We will now turn to our panel of witnesses.
    We are joined this morning by Ms. Lena McDowall. She is the 
Deputy Director for Management and Administration at the 
National Park Service at the Department of the Interior.
    Mr. Will Shafroth is the President and the CEO for the 
National Parks Foundation. Thank you for being here.
    As Senator Cantwell noted, Mr. Marc Berejka is the Director 
for Government and Community Affairs at REI, Recreational 
Equipment, Incorporated. I think we all just know it as REI, 
the Co-op.
    Sarah Leonard, I mentioned, is from Alaska. She is 
President and CEO for the Alaska Travel Industry Association.
    Mr. Shawn Regan is the Director of Publications and the 
Research Fellow at the Property and Environment Research 
Center. Welcome to the Committee.
    Finally, Mr. Richard Ring, who is with the Executive 
Council for the Coalition to Protect America's National Parks.
    We appreciate the time that you are giving the Committee 
this morning. We would ask you to try to keep your comments to 
about five minutes. Your full statements will be included as 
part of the record. We will go down the panel beginning with 
Ms. McDowall, and when you have all concluded your statements, 
the Committee will have an opportunity to ask their questions.
    So, welcome to you all.
    Ms. McDowall, if you would like to lead off, please.

STATEMENT OF LENA MCDOWALL, DEPUTY DIRECTOR FOR MANAGEMENT AND 
 ADMINISTRATION, NATIONAL PARK SERVICE, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Ms. McDowall. Thank you.
    Chairman Murkowski, Ranking Member Cantwell, and members of 
the Committee, thank you for the opportunity to present the 
views of the Department of the Interior on the deferred 
maintenance backlog and operational needs of the National Park 
Service.
    I would like to submit our full statement for the record 
and summarize the National Park Service's views.
    I am Lena McDowall, the Deputy Director for Management and 
Administration for the National Park Service. My statement will 
address the National Park Service's deferred maintenance 
backlog, which is the focus of many of our budgetary and 
programmatic efforts. As the Deputy Director who oversees the 
National Park Service's budget, I am prepared to respond to 
questions about the operational needs of our parks and programs 
as well as the maintenance backlog.
    Since Secretary Zinke's confirmation, tackling the deferred 
maintenance backlog has been a top priority. The Department 
manages roughly 500 million acres of land and possesses an 
infrastructure asset portfolio valued at over $300 billion. 
Roads, bridges, trails, water systems and visitor centers, even 
bathrooms, campgrounds and drinking fountains, are all part of 
this critical framework. After years of increased visitation 
and use, aging facilities and other vital structures are in 
urgent need of restoration.
    The Department has a total of about $16 billion worth of 
deferred maintenance. Of that amount, the National Park Service 
has the largest share at $11.6 billion in 2017.
    Here are just a few examples. At Denali National Park and 
Preserve the only road in the park is 92 miles long. For more 
than 640,000 annual visitors, this road is the primary way to 
see this expansive park. This essential road has over $32 
million in deferred maintenance which is over half of the 
park's total deferred maintenance of $54 million. Correcting 
deficiencies on the road will help provide safer conditions and 
a better experience for visitors traveling throughout the park.
    Known as three parks in one, Washington's Olympic National 
Park protects a vast wilderness, thousands of years of human 
history, ecosystems including glacier-capped mountains, old 
growth temperate rainforests, and wild coastline. However, with 
the $121 million in deferred maintenance, including water 
systems, roadways, buildings, and campgrounds, the annual 
visitation of over 3.4 million could see their experience and 
their safety suffer.
    In 2017, more than 3.5 million visited Maine's Acadia 
National Park to experience its rocky headlands along the 
Atlantic coastline, abundance of habitats with robust 
biodiversity, clean air and water, and rich cultural heritage. 
The park currently has a deferred maintenance backlog of $60 
million. The power line to support the Schoodic Education and 
Research Center, the drinking water supply, the wastewater 
treatment system, and 54 public buildings are well past their 
intended life span. Replacing the 2.6 miles of power line will 
enhance park operations, employee and visitor safety, and the 
visitor experience across the Schoodic peninsula.
    Appropriated funds are currently the primary source of 
funding for deferred maintenance. However, we know that we 
cannot rely on appropriated dollars alone to address this 
problem, so we are looking at multiple avenues for making 
additional funds available through other means.
    New proposals, including the proposed Public Lands 
Infrastructure Fund outlined in the President's 2019 budget, 
would address repairs and improvements in national parks, 
national wildlife refuges, and Bureau of Indian Education 
schools. The Administration's proposal would set aside a 
portion of unallocated federal energy revenues for 
infrastructure needs. This bold investment would significantly 
improve the nation's most visible and visited public facilities 
that support a multibillion dollar outdoor recreation economy.
    We greatly appreciate the effort of this Committee and your 
colleagues who have sought to craft real solutions to our 
maintenance backlog. We look forward to continuing 
collaborative efforts that preserve and maintain our national 
treasures.
    Madam Chairman, this concludes my statement. I would be 
pleased to answer any questions you may have.
    [The prepared statement of Ms. McDowall follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. McDowall.
    Mr. Shafroth, welcome.

  STATEMENT OF WILL SHAFROTH, PRESIDENT & CEO, NATIONAL PARK 
                           FOUNDATION

    Mr. Shafroth. Chairman Murkowski, Ranking Member Cantwell, 
members of the Committee, thank you for inviting me to testify 
at today's important hearing. My name is Will Shafroth. I am 
President and CEO of the National Park Foundation, the 
Congressionally-chartered philanthropic partner of the National 
Park Service.
    As you know, 2016 was the 100th anniversary of the National 
Park Service. The National Park Service and the Foundation 
worked together to take advantage of this once in a lifetime 
opportunity, at least once in my lifetime, to bring all 
Americans together to celebrate the Centennial and look forward 
to the second century of our national parks through our Find 
Your Park/Encuentra Tu Parque campaign.
    Thanks in part to these efforts, 2016 saw a record 330 
million visits to our national parks, and in 2017, those 
numbers just out, the park visitation numbers showed a similar 
number of visits to our 417 national park units. That level of 
visitation is a testament to the love and importance of our 
national parks to our citizens. However, that increased and 
sustained visitation to our national parks increases the strain 
on them.
    Secretary Zinke and many members of this Committee as well 
as in the House have made tackling the $11.6 million deferred 
maintenance backlog a high priority.
    The focus of my testimony is the role of how private 
funding can help address the maintenance backlog.
    The National Park Foundation launched the Centennial 
Campaign for America's National Parks in early 2016 with a $350 
million goal. As of today, the Foundation has exceeded the new 
updated goal of $500 million and we have done it 10 months 
early.
    Working together with the Park Service, this money has been 
spent with an eye toward improving visitor experience through 
the rehabilitation and repair of trails and facilities, 
protecting and restoring wildlife habitat, connecting young 
people and their families to national parks, and supporting the 
work of youth and veteran's corps to enhance our parks.
    The need to restore and modernize our parks is a top 
priority for our nation. As we see increased visitation, we see 
increased strain on facilities, the trails, the roads, the 
bridges and the staff, all of which can have a negative impact 
on visitor experience, as well as the financial health of 
hundreds of gateway communities that rely on parks for their 
survival. In fact, in 2016, as Senator Cantwell noted, 331 
million visits to our parks resulted in $18.4 billion in 
spending and the support of 318,000 jobs. Significant.
    As we all consider how to tackle the deferred maintenance 
backlog, I'd like to share what role philanthropy can play in 
helping to do so. Philanthropy can play a role, but it's 
limited to specific areas.
    Through our fundraising campaign, the Foundation has found 
that donors are enthusiastic about projects in national parks 
that rehabilitate, repair, and build trails as well as 
restoring buildings and other memorials. On the other hand, we 
haven't found that our donors are willing to support roads, 
bridges, sewer systems, water pipes and other hard 
infrastructure. This type of maintenance is generally viewed by 
donors as an inherently government responsibility. So they 
prefer to provide, sort of, that margin of excellence that the 
Park Service can't sometimes because of lack of funds or 
because of the length and uncertainty of the appropriations 
process.
    Additionally, in contrast to the $500 million that we've 
raised over the last four and a half years, the FY'18 Omnibus 
bill that Congress recently passed, provides $3.2 billion for 
the Park Service. You see the relative amount of money that 
we're contributing is still small compared to that that 
Congress provides.
    The National Park Foundation is committed to continuing to 
work with Congress and our partners at the Park Service to do 
what we do best, raise private, philanthropic funds from our 
parks, for our parks, and match donor interest with Park 
Service needs, including the deferred maintenance backlog.
    It's important to note that while the Foundation and local 
Friends groups, of which there are 275 around the country, have 
raised hundreds of millions of dollars for projects and 
programs and while philanthropic enthusiasm for parks has never 
been higher, philanthropy is not a panacea for deferred 
maintenance. There are a lot of tools that must be utilized to 
begin the process of improving the visitor experience for 
everyone. We look forward to working with this Committee to do 
our part.
    Thank you and I look forward to answering your questions.
    [The prepared statement of Mr. Shafroth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, sir.
    Mr. Berejka.
    Mr. Berejka. Berejka.
    The Chairman. Berejka.
    Mr. Berejka. Yes.
    The Chairman. I think I got closer this time than I did the 
first time.
    [Laughter.]
    I apologize for that.
    Mr. Berejka. It's an issue that tracks me throughout life.
    [Laughter.]
    The Chairman. We will try. Berejka.
    Mr. Berejka. Yes.

  STATEMENT OF MARC BEREJKA, DIRECTOR, GOVERNMENT & COMMUNITY 
       AFFAIRS, RECREATIONAL EQUIPMENT, INC. (REI CO-OP)

    Mr. Berejka. Chair Murkowski, Ranking Member Cantwell, 
members of the Committee, thank you for the chance to testify 
for REI alongside colleagues who share the co-op's deep concern 
about the future of the national parks.
    REI was founded 80 years ago when 23 climbers came together 
as a buying co-op for great gear. They loved to adventure into 
Mount Rainier and Olympic National Parks. So you really could 
say that REI was born in the national parks.
    Jump ahead to today, REI has over 150 stores in 36 states, 
a robust online platform, plus 17 million co-op members. We get 
Americans of all backgrounds out into the outdoors via our 
classes, programs, and trips. Many REI adventures go into 
national parks. These connections in the parks create bonds and 
memories that last a lifetime.
    To show our appreciation, we were top-tier sponsors of the 
park Centennial. We provided the Park Foundation significant 
financial and in-kind support, and much of that support was for 
stewardship projects staffed by our employees, by members, and 
by youth corps funded by REI. The co-op's fate and that of the 
parks has been intertwined for decades.
    For these reasons, we thank the Committee for your work 
supporting the parks, in particular for passing the Centennial 
Act last Congress. We were pleased to see the bipartisan 
commitment to the parks' next century. And going forward, REI 
will maximize our use of those matching funds to address 
backlog projects.
    Today, I want to highlight two points. First, the 
recreation sector is surprisingly large, or at least surprising 
to some, and the national parks play a keystone role in that 
ecosystem. Second, we need to realize the failure to address 
the backlog is harmful both to the economy and to the parks' 
overarching vision.
    On the first point, you might recall that in 2016 Congress 
also passed the Outdoor Rec Act. It requires the Commerce 
Department's Bureau of Economic Analysis (BEA) to create an 
account that measures the recreation sector's size. And just 
this February BEA released preliminary findings. A few early 
headlines. The recreation economy accounts for two percent of 
GDP. That's more than many industrial sectors. And importantly, 
this data is likely understated because the early BEA numbers 
don't include close to home recreation. Also important, these 
contributions are overwhelmingly driven by non-federal sectors. 
For instance, for every dollar of GDP generated by federal 
spending, the private sector and state and local governments 
generate $135 for GDP.
    As to wages, federal expenditures are about $1.7 billion 
per BEA and that's just 0.8 of 1 percent of the hundreds of 
billions of wages that go into the outdoor recreation sector.
    Given the beltway's tendency to focus on federal 
responsibilities, it's eye opening to see how our hard-fought 
federal spending, much of it on national parks, is in many ways 
a catalyst. Federal spending seems to be a small percentage of 
the whole of the recreation economy, but our national parks and 
public lands clearly inspire Americans across the country to 
embrace the outdoors.
    This is why failure to address the backlog risks 
diminishing us as a nation. Maintenance challenges degrade the 
experience when visitor centers are subpar, when campgrounds 
and trails are in disrepair, American and overseas travelers 
face frustration and disappointment. In these cases, the park 
experience doesn't deliver on the inspiration and connection 
that people hope for and deserve, the entire vision for the 
park suffers.
    As we see the legislative needs, they are these. One, 
continue the ongoing full accounting of the outdoor recreation 
sector's economic benefits, especially the parks. Pursue 
bipartisan solutions. Prioritize the maintenance backlog within 
the budget and without raiding other programs vital to existing 
and future recreation opportunities. Finally, continue to work 
toward innovative public-private partnerships.
    In many respects our public lands and parks are our 
collective backyard, and we are the collective owners. If we 
allow our assets to languish in disrepair, it will cost more to 
bring them back. In the meantime, the value of the American 
experience will suffer. For a country committed to life, 
liberty and the pursuit of happiness for all, we cannot afford 
retreat.
    Let me close by applauding the Committee for continuing to 
work together. We all have a role to play. REI appreciates 
being part of the conversation.
    At the co-op we have a saying that, ``a life outdoors is a 
life well lived.'' Together, we can make that a reality for the 
people, the communities and the businesses that cherish our 
national parks.
    Thank you.
    [The prepared statement of Mr. Berejka follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Berejka.
    Ms. Leonard, welcome.

         STATEMENT OF SARAH LEONARD, PRESIDENT & CEO, 
               ALASKA TRAVEL INDUSTRY ASSOCIATION

    Ms. Leonard. Thank you, Chairman Murkowski, Ranking Member 
Cantwell, and members of the Senate Energy and Natural 
Resources Committee for this opportunity to testify about 
deferred maintenance in Alaska's national parks.
    I want to thank Chairman Murkowski, Ranking Member 
Cantwell, Senators Portman and Alexander and others on this 
Committee for your work to address funding for park 
maintenance.
    My name is Sarah Leonard, and I'm the President of the 
Alaska Travel Industry Association, ATIA. We are a 650-member 
trade organization representing tourism businesses and 
promoting the economic impact of tourism in Alaska. Many of our 
members rely on the national parks for their livelihoods. 
Deferred maintenance and park infrastructure, the backbone 
supporting visitor experiences in our national parks, are of 
critical importance.
    Tourism is Alaska's second largest private sector employer, 
and national parks contribute significantly to the health of 
our industry. For many people, Alaska is a trip of a lifetime. 
National parks like Denali, Glacier Bay, Kenai Fjords, Katmai, 
and Wrangell-St. Elias are iconic places that are featured 
strongly in visitors' itineraries.
    The majority of Alaska's two million visitors each year go 
to one or more of our national park sites as either independent 
visitors or as part of a larger tour package. National park 
visitation alone generates nearly $1.7 billion in annual 
economic activity for Alaska and supports more than 17,000 
jobs. Approximately 60 percent of the National Park Service's 
total acreage is in Alaska. Many of our parks are inaccessible 
and have little permanent infrastructure. Our more accessible 
parks are another story.
    In 2016 the Klondike Goldrush National Park in Skagway saw 
more than 900,000 visitors. Skagway, by the way, has a 
permanent population of 900 people.
    Visitation at Alaska's national parks is expected to grow, 
and a robust and well-maintained infrastructure is essential to 
a positive visitor experience.
    Park staff, quality infrastructure and services help create 
those memorable visitor experiences. Unfortunately, annual 
operations budgets make it challenging to hire qualified, 
skilled maintenance staff to maintain existing infrastructure. 
This leads to more projects showing up on deferred maintenance 
lists.
    At nearly $106 million, the backlog in Alaska's parks is at 
best an inconvenience and, at worst, a threat to human safety, 
our businesses, and our communities.
    I'd like to share examples from two parks.
    More than 580,000 visitors came to Denali in 2016 hoping to 
see North America's highest mountain. Denali National Park and 
Preserve represents nearly half of Alaska's total estimated 
maintenance backlog budget. Issues include deteriorating 
wastewater and water lines at the heavily used east end of the 
park. Should either of those systems fail completely during 
peak season, the impact would be devastating. Significant 
investment is also needed on the park road already mentioned, a 
92-mile, mostly gravel road leading into the heart of the park. 
It is the only road in or out of Denali. In 2016, a freeze-thaw 
cycle and unseasonably heavy rains created a 100-foot-long, 10-
foot-deep mudslide, which closed the road in the middle of peak 
summer season. The closure limited guest access and required 
significant logistical and transportation alternatives to ferry 
guests back to the park entrance. One business reported losing 
more than $20,000 over the nine-day road closure. If the road 
were to close completely for any length of time, visitors would 
not be able to access the park and the hotels, tour operators, 
restaurants, and businesses at the park entrance would see 
dramatic cancellations. The economic impacts would ripple 
throughout our state.
    Glacier Bay National Park in Southeast Alaska is one of the 
world's largest international protected areas. It is also home 
to a historic lodge suffering from more than 30 years of 
deferred maintenance. Gustavus, Glacier Bay's gateway 
community, has a population of 544, and the park-owned lodge is 
the community's anchor business. Currently 25 percent of the 
lodge's 65 rooms are unavailable to guests because of water 
damage or other structural issues. The concessionaire is 
disinclined to invest in maintenance because of the building's 
condition and low profit margin, and the building's condition 
continues to deteriorate. It's a vicious cycle threatening not 
only the lodge and the visitor experience but the economic 
future of the community.
    Our parks need a consistent funding source to address both 
current and deferred maintenance needs. If visitors can't visit 
our parks because they are inaccessible or unsafe or lack basic 
amenities, they stop coming.
    Alaska's tourism industry supports our national parks and 
the dialogue about how to remedy the maintenance backlog. 
Functional, stable facilities benefit not only visitors, but 
also tourism businesses, park concessionaires, gateway 
communities and our state.
    On behalf of the Alaska Travel Industry Association, thank 
you for your time and the opportunity to share our story.
    [The prepared statement of Ms. Leonard follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Leonard.
    Mr. Regan.

   STATEMENT OF SHAWN REGAN, RESEARCH FELLOW AND DIRECTOR OF 
 PUBLICATIONS, PROPERTY AND ENVIRONMENT RESEARCH CENTER (PERC)

    Mr. Regan. Thank you, Chairman Murkowski, Ranking Member 
Cantwell, and members of the Committee for the opportunity to 
appear before you today to discuss the maintenance and 
operational needs of the National Park Service.
    My name is Shawn Regan, and I'm a research fellow at PERC, 
the Property and Environment Research Center, a non-profit 
research institute in Bozeman, Montana, where I study public 
land policy.
    The topic of this hearing is directly related to my 
research at PERC but is also of immense importance to me 
personally. For four years I worked as a backcountry ranger in 
Olympic National Park in Washington State where I helped 
maintain trails, patrol wilderness areas, and assist park 
visitors.
    During my time in the Park Service I witnessed firsthand 
the maintenance and operational challenges the agency faces 
from the dilapidated infrastructure and visitor facilities to 
the funding shortfalls that often hinder the ability of local 
managers to carry out the agency's mission.
    And perhaps, most importantly, as a Montanan who is a 
frequent visitor of parks such as Yellowstone and Glacier, I 
thank the Committee for taking up this important issue.
    As you know, the Park Service recently celebrated its 100-
year anniversary, but as the agency embarks on its second 
century, decades of neglect have left a glaring blemish on a 
Park System known for its crown jewels.
    Today, the agency faces an $11.6 billion maintenance 
backlog, an amount that is five times higher than its latest 
budget from Congress. The effects of this backlog can be seen 
throughout the Park System, including a leaky wastewater system 
in Yosemite that at a time spilled sewage into the park 
streams, a failing water pipeline in the Grand Canyon that 
often leaves visitors without potable water, and campgrounds 
and lodges in the Everglades that have been left in disrepair 
for more than a decade.
    The important efforts of this Committee notwithstanding, 
the Congress has not secured adequate funding for park 
maintenance through budgetary appropriations regardless of the 
political party in power. A recent report published by PERC 
found that Congress appropriated about $520 million each year, 
on average, to deferred maintenance between 2004 and 2014, but 
the Park Service estimates it would need to spend at least $700 
million each year on deferred maintenance just to keep the 
backlog from growing. And yet, while appropriations for 
maintenance fall short, Congress continues to create new parks 
and expand existing ones.
    Since 2000, 35 new park units have been added to the 
National Park System, but they have not come with corresponding 
increases in appropriations. With more parks but no additional 
funding, the Park Service has been stretched thin and as a 
result the backlog has shown no signs of declining.
    As a former park ranger, I know that no one understands the 
maintenance and operational needs of parks better than the 
local park managers themselves. In recent years, Congress has 
allowed park managers to charge and retain user fees from 
visitors and reinvest those revenues in projects that enhance 
the visitor experience. These revenues are important because 
they allow park managers to address critical needs, including 
deferred maintenance, without relying entirely on conventional 
appropriations. They also connect visitors with the long-term 
sustainability of our parks and encourage local managers to be 
responsive and accountable to visitors. Yet, since the 
recreation fee program was established in 2004, the National 
Park Service has imposed various internal restrictions on fee 
expenditures by local park managers, including costly approval 
processes and requirements that fines be spent on specific 
purposes determined by officials in Washington rather than 
local managers on the ground.
    As one example, park managers are generally prohibited from 
spending fee revenues on recurring or cyclic maintenance and 
operational needs. That means fee revenues cannot be used for 
regular upkeep of visitor facilities, to ditch roads, to 
prevent costly long-term damage, or to support permanent 
employees to conduct or oversee routine maintenance. These and 
other restrictions undermine the effectiveness of the park's 
fee program and contribute to the overall maintenance backlog 
problem.
    Conservation, at its core, is about preserving and 
maintaining what you already own. Congress and the Interior 
Department are right to explore various ways to reduce the 
deferred maintenance backlog, but an even more fundamental 
challenge remains and that is to prioritize the routine or 
cyclic maintenance that is necessary to prevent projects from 
becoming deferred in the first place.
    My written testimony provides further details on how 
Congress and the Park Service can address the backlog problem 
by focusing on the needs of existing parks before considering 
additional expansions to the Park System, by providing more 
decision-making authority to local park managers, something 
that Interior Secretary, Ryan Zinke, has outlined as a priority 
and by investing in the routine maintenance that is necessary 
to prevent future increases in the deferred maintenance 
backlog.
    I hope that the ideas I've described would be helpful as 
the Committee explores ways to tackle this important problem.
    Thank you again for the opportunity to present my views on 
this subject and I look forward to answering any questions you 
might have.
    [The prepared statement of Mr. Regan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much, Mr. Regan.
    Mr. Ring, welcome.

 STATEMENT OF RICHARD G. RING, MEMBER, EXECUTIVE COUNCIL, THE 
         COALITION TO PROTECT AMERICA'S NATIONAL PARKS

    Mr. Ring. Chairman Murkowski, Ranking Member Cantwell, and 
other members of the Committee, thank you for the opportunity 
to appear before you on behalf of the Coalition to Protect 
America's National Parks to help examine the deferred 
maintenance and operational needs of the National Park Service.
    I'm a long-time member of the Coalition. I've served on the 
Executive Council for five years. Before that, though, I spent 
35 years in government service, 33 with the National Park 
Service. And during that time, I spent 20 years, I was a Park 
Superintendent, and 4 years as an Associate Director of the 
Service.
    Much has been written and discussed about the facility 
condition and maintenance backlog of our national parks and 
deservedly so, but that's not the only backlog the National 
Park Service faces. We have to remember that our national parks 
require both protection of their resources and making them open 
and accessible for the enjoyment of visitors. Adequate funding 
via annual appropriations is needed to do that.
    Even with the passage of the recent Consolidated 
Appropriations Act, parks continue to face challenges with some 
only open seasonally due to inadequate operational funding and 
staffing. Lands also within current park boundaries identified 
in land protection plans also need to be acquired. There is a 
backlog there. Inadequate appropriations from the Land and 
Water Conservation Fund and the Administration's Freeze the 
Footprint goal threaten these lands. Inability to get long-term 
extension of the Land and Water Conservation Fund increases 
these threats. I'm not talking--I'm talking about lands inside 
existing national parks, not the lands to expand or add 
national parks.
    The National Park Service continues to have dedicated 
individuals who work for the organization and do their best to 
welcome visitors while protecting resources entrusted to their 
care and to carry out programs that touch individual and 
partner organizations and communities throughout the country.
    The Park Service has already taken a number of steps to 
bring in more revenue focused on the deferred maintenance 
backlog, though, through increased entrance fees in certain 
parks, increased franchise fees in concession operations, 
joining with the National Park Foundation in a $500 million 
capital campaign, identifying partner donations and match 
Centennial Challenge Fund dollars--and we believe that they 
will continue to do so.
    However, we cannot kid ourselves into thinking that the 
deferred maintenance backlog will be addressed using only 
current programs and funding. Continuing to place the burden on 
our visitors by increasing fees will only exclude people from 
the places that bind us together as a country and that remind 
us of who we are as Americans and the values we cherish.
    To address the backlog in a meaningful way, a dedicated 
source of funding is needed. Many ways have been discussed to 
get this dedicated funding through the years, including the 
recent legislation that's been introduced in the Senate and the 
House.
    The Coalition believes it is imperative that this dedicated 
funding, (1) be large enough to make a meaningful impact toward 
reducing the backlog, (2) be dependable, (3) be sustainable, 
and (4) be additive to annual appropriations and other funding 
the National Park Service already receives.
    We urge the Committee to work toward identifying the best 
program that the country can support in order to preserve our 
natural, cultural, and historic resources found in our national 
parks. We will continue to help increase awareness of the 
importance of this dedicated source of funding to address the 
park's backlog, and we will be glad to work with you on any 
legislation that achieves this goal.
    [The prepared statement of Mr. Ring follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Ring.
    Thank you, all, for your testimony this morning.
    I will begin with a question. I think I will start with 
you, Ms. McDowall, trying to understand what gets included into 
this deferred maintenance category and, kind of, the 
prioritization because, Mr. Regan, you made a statement here 
that when it comes to the reoccurring and the cyclic needs 
that, effectively, decisions are being made out of Washington, 
DC rather than the ability of the local folks on the ground to 
help prioritize this.
    Let me use just a specific example, Ms. McDowall. You heard 
me mention Polychrome Pass. You have noted it in your comments. 
Ms. Leonard has spoken to what has happened with the mudslide 
and just all that we are facing there. I think it is clear that 
we have a situation where we are going to have to do something 
aggressive here and rerouting a road in this area is 
extraordinarily difficult, extraordinarily timely, and 
extraordinarily expensive. But instead of coming up with a 
rerouting plan, we are basically using cycling funds to just, 
kind of, patch it. We now have a deferred maintenance budget 
out of the park and certain areas of the park road are 
considered to be in that deferred maintenance budget, but the 
Polychrome Pass area is not.
    So the question is, why is that the case and then how is 
that determined and, ultimately, where is the accountability 
for the deferred maintenance number? Is it with the 
Superintendent? Is it with the Regional Director? Is it with 
the folks back here in Washington, DC?
    Ms. McDowall. Sure, thank you for that question.
    In looking at what is considered DM, so deferred 
maintenance has a technical definition. It is work that was not 
completed as scheduled. So if you were supposed to replace a 
roof every seven years or repair it every seven years and that 
repair is delayed, then the cost of that repair is included as 
part of our deferred maintenance number.
    If there are some, a different problem, let's say that 
there's a, something falls on the roof, the roof gets damaged 
for some reason, those repairs are high priority repairs, but 
they would not technically be considered deferred maintenance 
because they're not the result of maintenance work that was not 
completed.
    The Chairman. So then with Polychrome Pass, it is work that 
is not in that category of not having been completed, but it is 
an example of something bad has happened or could happen so we 
need to get on it sooner than later.
    Ms. McDowall. Correct.
    The Chairman. What category, then, does that go into?
    Ms. McDowall. It falls into a high priority, critical 
repair that needs to happen.
    When the Park Service looks at how it prioritizes its 
investment dollars, it's not just looking at items that fall 
into deferred maintenance. It's looking at health and safety--
--
    The Chairman. So then?
    Ms. McDowall. And criticality for the park mission.
    The Chairman. Good to know.
    So if it is in that high priority category, is that in the 
Alaska maintenance, deferred maintenance budget? What do we 
have? Fifty-four million dollars that comes to Alaska for our 
deferred maintenance. We have acknowledged that half of that is 
within the park. I don't recall what the ballpark is for this, 
but how do you balance that? You have the water and sewer issue 
that Ms. Leonard spoke to that is critical and pending, and now 
you have this. Tell me how you are prioritizing all of these 
critical projects?
    Ms. McDowall. So there are a number of different fund 
sources that the Park Service uses to address these large 
projects that would be beyond the scope of, usually beyond the 
scope of, any one park to deal with.
    So----
    The Chairman. Does Superintendent Striker have the ability 
to direct those funds?
    Ms. McDowall. He has the ability to apply for those funds 
or for the Park Service or the region to prioritize that 
particular project out of these other fund sources that are 
available for all parks.
    So the Park Service uses a scoring system that we use to 
look at the various merits of projects across the system. 
There's out of line item construction or out of recreation fee 
dollars that are held at the Washington level for parks that 
may not collect fees. We use a similar scoring mechanism across 
the board so that we can try to compare apples to apples.
    For projects like the Polychrome Pass road or some of these 
other critical wastewater treatment systems that, particularly 
at our larger parks where we have large numbers of visitors 
relying on them, those projects score very well and usually end 
up at the top of many of our lists.
    The Chairman. Well, I am going to want to understand a 
little bit more, because I know that Senator Cantwell feels 
very strongly about her parks and Senator Hirono and Senator 
Portman, everyone feels very strongly about our parks. I am 
going to tell you that my priority is higher than your priority 
because I have a situation here.
    We all recognize that the dollars that are needed are not 
sufficient. Making sure that you have a prioritization system 
that makes sense, again, I think that what Mr. Regan has 
raised, with the ability of your local superintendent to be 
able to address some of these more reoccurring issues with the 
dollars that come directly to those parks, works in many of our 
parks. But then, we have some parks in the State of Alaska 
that, quite honestly, don't have much visitation so you don't 
see much revenue coming in.
    Anyway, I am talking too long. I am going to go to Senator 
Cantwell.
    Senator Cantwell. Thank you.
    The Chairman. You can continue asking my question.
    [Laughter.]
    Senator Cantwell. Yes, actually, Madam Chair, I am going 
to----
    The Chairman. Good.
    Senator Cantwell. ----because there probably should be a 
little footnote here when it comes to Alaska parks. I am pretty 
sure there is a lot of Washington revenue that comes from that 
and that many visitors to Alaska come through Washington and, 
as Mr. Berejka said, it is an ecosystem. And so, the more of 
the ecosystem that has a major employer like REI in Washington 
State, it is kind of like aerospace. You have a supply chain 
and you have people that are all part of that, so the more that 
you can create a visitor experience, the more that economy 
grows. I am just a big fan. It is great to know that it is two 
percent of GDP. It's very good to know. I think that should 
make our task easier when it comes to these numbers, but I 
think we have some work to do.
    You pointed out, Mr. Berejka, that you think we do need 
better accounting. My sense is you have a lot of information 
and data on what is making consumer activity happen, whether 
that is visitation or what have you. The notion that we can do 
better accounting here, I think, is really important. I think 
it should be pretty basic. At this level, a park fee increase 
means the visitation is going to drop off, and we should know 
that. That is a very knowable thing.
    At the same time, to Senator Murkowski's point about 
Denali, we also should be able to know if we make this road 
improvement in Denali, chances are visits to Denali are going 
to go up because you are going to enable a better consumer 
experience.
    Do you agree that that is possible? That we should be able 
to have, even if they are guesstimates, a pretty good 
understanding of what our investments or policies can do to 
restrict visitors?
    Mr. Berejka. So, I agree completely with the sentiment, 
Senator. I'm sure that's not a surprise.
    But I also would comment that we are in the early days of 
understanding the full economic benefit of time outdoors. We, 
at REI, have supported our trade association in doing economic 
analyses going back to 2006 and there are actually only three 
of those--2006, 2011, and one in the past year.
    But now, what's exciting is that the Federal Government, as 
a result of the Outdoor Rec Act, is in the game. And BEA is 
looking closely at the economic impact of the outdoors and 
these professional economists are just beginning to flush out 
what the economic impact is. We ought to be continuing to work 
with BEA on what they can find out deeper in the data.
    One thing I ask people to reflect on that I called out in 
my testimony is that at least at this early stage, BEA says 
that for a $1 contribution from federal spending into GDP, 
there is $135 of GDP generated by the private sector and by 
local and state government. And so, if you have an investment 
of federal dollars and along the line that spawns activity and 
ecosystem that generates $135, I would argue you ought to be 
spending more federal dollars not less.
    Senator Cantwell. Do you have an idea why we have seen the 
20 percent increase in visitation?
    Mr. Berejka. So, the outdoor sector is a growth sector. 
Going back to the BEA data, they found that the economy as a 
whole in the past couple years has grown at an average of 2.8 
percent. Whereas, the recreation economy has grown at 3.8 
percent. That full percentage growth advantage on a big economy 
is actually a lot of dollars and that's a lot of Americans 
reconnecting with the outdoors, a lot of Americans going to 
stores, buying their gear and apparel but then the lion's share 
of dollars are spent on trips and travel.
    And so, we just find that Americans, while we're urbanizing 
as a country, are finding more and more time, more and more 
reason to get out into the outdoors for solace, for connecting 
with family/friends, having adventures of a lifetime.
    Senator Cantwell. Thank you.
    Ms. Leonard, I only have a few minutes left, but you said 
something I thought was really important, and that was 
connecting the deferred maintenance and staffing issue, both in 
the sense of not having a place for staff to stay and in 
enhancing the visitor experience. Besides increasing access 
which is, just say, visitation, I think we really need to focus 
on the quality of the experience. Could you just comment about 
what you are referring to?
    Ms. Leonard. Thank you, Ranking Member Cantwell.
    Exactly. Some of the deferred maintenance projects are 
invisible to the visitor and support the park staff that are 
there--so in park maintenance or park buildings, park 
facilities, but also having qualified experienced staff. That's 
another resource for our national parks to be able to have 
qualified staff who can carry on and coordinate the projects, 
the deferred maintenance projects, and have the skills to be 
able to comment to that. And so not being able to keep or hire 
a qualified staff that knows those projects on a long-term 
basis adds to projects showing up on deferred maintenance 
lists. And then, having that staff have to make decisions on 
projects, whether it's supporting a safety issue, an 
infrastructure issue, or an issue that lends to a visitor 
experience.
    We support having the park staff have that flexibility. 
It's some of those invisible projects that the visitor doesn't 
even realize is happening that really adds to having a 
memorable experience. They don't have to worry about basic 
amenities. If there's one extreme basic amenities having a 
wastewater system that works, to some of the real safety issues 
we're talking about and related to the Denali road, in 
particular.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Senator Capito.
    Senator Capito. Thank you, Madam Chair, thank the Ranking 
Member, and thank all of you. I apologize for not being here 
for all of your testimony, but it is an area of interest for 
me.
    I am a co-sponsor of S. 2509, which is the National Park 
Restoration Act. We just rolled it out with Senator Alexander 
and others the other day because I believe it could and has the 
potential to play a significant role in the deferred 
maintenance issue. That is where you would take some of the tax 
revenues generated by oil and gas on federal lands and offshore 
and put it into a mandatory fund for the parks. So I want to 
talk about that a little bit.
    I have two national parks in West Virginia, nothing like 
what many of the folks here on the dais have, but we have 
Harpers Ferry, which obviously is a big tourist attraction for 
many folks in the DC and surrounding area, and we also have the 
New River Gorge National River which is beautiful and I hope 
many people visit there as well.
    We are talking about the economic benefits of the Pew 
Charitable Trust estimates that we have over 335,000 visitors 
to Harpers Ferry, generating about $24.2 million in revenues 
and, I think, probably, that is low compared to the surrounding 
areas. So I know that deficit funding for the National Park 
Service has had different effects in different communities. I 
wanted to ask you, Ms. McDowall, we have an issue, a local 
issue, we sent over to your staff. I don't know if you have the 
direct impact on this, but basically what it looks like, it is 
a public service district where the New River Gorge bridge, the 
New River Gorge National River comes in, and you are using the 
local public service district for water and wastewater. And we 
are having a rate dispute. I don't know if you are aware of 
that?
    Apparently the response by the National Park Service is 
that there is an existing agreement that they would pay a 
certain rate in perpetuity. I would like to get an agreement 
that tells me I am going to pay anything in perpetuity, but 
anyway, I would like to ask you if you are aware of this, 
number one, and then if you could assist us with this? I have a 
letter here that I think we sent over to you all.
    Ms. McDowall. So we recently became aware of the situation 
and are working to resolve it, and we'll make sure that we work 
closely with your office and keep you up to date on where we 
are with that discussion and its resolution.
    Senator Capito. I think it comes to another, a bigger, 
question really probably throughout the Park System is that 
your communities that are supportive of the Park System, many 
times are small communities because you are in rural areas, you 
are in outdoor areas. And they are really having difficulties 
as well meeting their, sort of, bottom lines. I know the 
partnerships between communities and the National Park Service 
are extremely important. But in order to keep them viable and 
growing, you have to make sure that we are taking care of 
communities at the same time.
    I am going to, kind of, throw it open from here because I 
am interested to know if there is any reaction that anybody 
would like to express on S. 2509, which is the National Park 
Restoration Act.
    We will start right there, with you. You are next after 
that.
    Mr. Shafroth. Thank you, Senator Capito. Will Shafroth, 
from the National Park Foundation.
    We actually don't take positions on these bills. I just 
want to make an observation, if I could though.
    Senator Capito. Yes.
    Mr. Shafroth. Between the bill that you're focusing on and 
the one that Senator Portman is also working on, it's a great 
indication to me that this has become a priority of Congress, 
just as back in the '60s when the Land and Water Conservation 
Fund was established it became a priority of Congress to look 
at dealing with inholdings and additional federal land 
acquisition and using a similar source of funding.
    So what I really hope, as Mr. Berejka mentioned in his 
testimony, is that there could be a meeting of the minds to try 
to find some way through it, because I think Congress is 
recognizing the critical nature of the maintenance backlog 
challenge that we have and it is now more a matter of how we do 
that than whether we do that.
    Senator Capito. I would imagine when we get to this it 
would really help you and your Foundation to attract more 
private dollars because of, sort of, the ball rolling down the 
hill, things are picking up steam.
    Mr. Shafroth. Exactly. Our donors are much more likely to 
contribute more money if they see that the Federal Government 
has skin in the game.
    Senator Capito. Right.
    Mr. Shafroth. And as opposed to it being asked to fund 100 
percent of a project.
    Senator Capito. Right.
    I am going to go back to Ms. McDowall really quickly, 
because I did want to mention the name of the public service 
district, and that is the Meadow Creek Public Service District, 
just in case you didn't get it the first time.
    Would anybody else like to talk about the public parks 
restoration, National Parks Restoration Act? Is anybody else 
familiar with that? Yes?
    Mr. Berejka. Thank you, Senator.
    I would echo Will's comment. There are a number of 
innovative solutions that have been put on the table. Each one 
attempts to address the immense challenges facing the parks.
    And I think our perspective is that ultimately it may 
require a combination of these solutions or these proposals, 
but what's really exciting is to see the commitment from this 
Committee again.
    Senator Capito. Right.
    Mr. Berejka. To come back at this big challenge that 
overhangs, not just the national parks, but as everybody has 
recognized, the communities around the national parks.
    Senator Capito. Right.
    Mr. Berejka. And then all that the national parks mean to 
the American people.
    Senator Capito. Right. Right.
    Thank you. Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Senator Smith.
    Senator Smith. Here we go. Thank you, Madam Chair.
    I am so grateful for this Committee hearing. This is 
something I feel very strongly about, and I very much 
appreciate all of your testimony.
    I was reminded that I spent the Bicentennial in Denali 
National Park when I was 18 years old, so it brings back fond, 
very fond, memories. We were camping. We were not staying at 
any lodges. Of course, in Minnesota we have five national parks 
and monuments, including Voyageurs National Park where I know, 
Will, you love to spend summertime there.
    So it is very important and it is, as you say, Mr. Berejka, 
it is also very important to our economy.
    My notes tell me that a million people visited national 
parks and monuments in Minnesota, that although we don't have 
parks the size of Denali or Olympic, generating revenue, they 
spent around $56 million in the surrounding communities at the 
time. So it is very important.
    I am gathering from this testimony that we have lots of 
ideas for what we could be doing better to address the deferred 
maintenance need. I am hearing also how, as part of that, it is 
important that we get decision-making at the right level about 
what gets prioritized and how that gets prioritized. That is, I 
think, a theme that I have heard from Ms. Leonard and Mr. Regan 
and also Mr. Ring.
    Let me ask you this, Mr. Ring. In your testimony you talk 
about something I wanted to follow up on. You talk about how, 
kind of, these partnerships that we have for funding are now 
being threatened, you say, by a new process established within 
the Department of the Interior that creates an unnecessary and 
unwise layer of political screening for grants and cooperative 
agreements. And it appears that this has the goal of imposing 
new review requirements that could affect how dollars are 
allocated and imposing, sort of, a political litmus test. That 
is very concerning to me because I think these decisions should 
be based on non-political concerns. Could you just talk a 
little bit about that? Then Ms. McDowall, I will ask you about 
that.
    Mr. Ring. Certainly. I'd make two observations with regards 
to the partnership programs.
    One is they are often cumbersome to establish because of 
the levels of review and the approval and the procedures 
associated with it. There are certainly cautions to make sure 
you get those partnerships right, because if you don't you can 
get into some difficulties both with the partner and on behalf 
of the park. Nonetheless, the ability to enter into those 
cooperative agreements and partnerships needs to be expedited 
and the opportunities at the field level, that superintendents 
can take advantage of, need to be facilitated.
    The second is that the reviews should be based solely on 
what is the benefit to the park, not who the partner is. And we 
certainly have some concerns that a good system to accomplish 
that is not in place at the moment.
    Senator Smith. Ms. McDowall, would you like to comment?
    Ms. McDowall. So I would say that on the financial 
assistance review process, the review is designed to ensure 
that the financial assistance being provided is in line with 
the Secretary's priorities for the National Park Service.
    Senator Smith. What does that mean?
    Ms. McDowall. So the Secretary has laid out a set of 
priorities that--for the National Park Service related to items 
like deferred maintenance, recreational access and a number of 
other areas that he has said are his top priorities for the 
Park Service. When the Department does review financial 
assistance opportunities for the National Park Service, it is 
looking at it with that lens.
    There are plenty of projects that are being approved that 
are not necessarily directly in line with those top 10, but it 
is something that they do want to emphasize for parks and that 
the review process is designed to ensure that those priorities 
are taken into account when those decisions are being made.
    Senator Smith. Okay.
    Madam Chair, I think this is an interesting and important 
issue. As we grapple with it, you know, we will never have 
enough money. We need more resources, clearly, in deferred 
maintenance, but I think it also is really worthwhile for us to 
spend time thinking about how those dollars get allocated. It 
seems to be at the root of the questions that you were asking 
as well.
    Thank you.
    The Chairman. Thank you, Senator Smith.
    Senator Daines.
    Senator Daines. Thank you, Chair Murkowski and Ranking 
Member Cantwell, for holding this hearing today. Addressing our 
national parks' deferred maintenance backlog, in fact, is one 
of the main reasons I chose to chair the National Parks 
Subcommittee.
    Our national parks make us uniquely American and while the 
deferred maintenance has been escalating in recent years, I 
truly am optimistic that we have a window of opportunity right 
now with Secretary Zinke and President Trump's leadership to 
actually solve the problem.
    I was happy to introduce with Senator Alexander, 
Subcommittee Ranking Member King, and several others on this 
Committee the National Park Restoration Act to implement the 
Administration's proposal to dedicate energy revenue for the 
National Park Service maintenance backlog. I know other 
programs like the Land and Water Conservation Fund also have an 
interest in mineral revenue and it still needs permanent 
reauthorization and full funding, but I believe we can keep our 
commitment to both--but we must not hold back one priority at 
the expense of the other.
    Finally, this hearing is timely as we introduce a 
resolution to recognize National Park Week and look ahead to 
events planned across the country to celebrate our national 
parks next week.
    Ms. McDowall, could you explain how the Administration has 
used tools the Congress has already provided like the 
Centennial Act, mandatory funding from helium sales, or other 
measures to reduce the deferred maintenance backlog?
    Ms. McDowall. Thanks for that question.
    On the Centennial Initiative, there were a number of 
elements in that bill that will help the Park Service address 
deferred maintenance.
    So first was the increase in the price of the Senior Pass 
which the first $10 million each year funds an endowment with 
the National Park Foundation that will eventually provide a 
steady source of funds for parks into the future. Any 
additional revenue above that $10 million that's earned every 
year goes into a matching fund or a challenge fund that the 
Park Service can use to match public dollars with private 
dollars.
    We have a similar program in the Centennial Challenge 
program which has proved very successful over the last number 
of years. Last year our private partners matched $20 million in 
federal funding with about $33 million in private dollars. So 
that is a program that as those revenues and that fund source 
grows over the years will be a very helpful fund source.
    The other element of the Centennial package that should 
provide some additional resources for the Park Service is a 
pilot contracting authority that the Park Service received to 
look at different ways to contract for commercial services in 
parks. So thinking about the lodge in Gustavus, for example, as 
one of our, maybe, more challenging properties that might 
benefit from a larger set of contracting tools to perhaps 
attract in the future different companies that might be willing 
to enter into a different kind of arrangement with the Park 
Service than our traditional concession program.
    So we're looking at that as an opportunity where we might 
be able to do some new things that would bring new investment 
into a park, commercially focused facilities.
    The Helium Act, we are focusing that funding on facilities 
projects. So it's one more fund that we can use to address the 
many needs that we have across the Park Service.
    Senator Daines. Yes, it is a great precedent in many ways, 
set here, what we are trying to do here next to address the 
$11.6 billion.
    Mr. Shafroth, I recognize the huge success of the National 
Park Foundation in raising philanthropic dollars for the 
National Park Service, for the success of Find Your Park 
campaign has brought a new generation of visitors to our parks.
    We are seeing record levels of visitors, of course, in many 
of our parks, including my two home parks here, Yellowstone 
National Park and Glacier National Park, which will continue to 
ensure our country values these special places for years to 
come. I was happy we enacted the Centennial Act to help bring 
the Park Service into this next century.
    However, we must find ways for our philanthropic dollars to 
support more critical infrastructure projects like roads and 
water systems. After all, no one wants to visit a national park 
with these facilities in such dire conditions and roads in 
disrepair because it cannot sustain the influx of visitors. We 
are seeing we are loving our national parks to the point where 
we need help right now in infrastructure.
    I was happy to introduce the National Park Restoration Act 
to help dedicate revenue into fund-less projects, but I don't 
believe we can stop exploring other ways, certainly, to 
augment, supplement that legislation.
    My question for you is what has the National Park 
Foundation done to try to attract investment in critical 
infrastructure like roads, bridges, and water systems?
    Mr. Shafroth. Thank you for your question, Senator Daines, 
and thanks also for your sponsorship of the National Park Week 
recognition for next week.
    As I said during my testimony, we have not found a lot of 
philanthropic interest in supporting, sort of, what I call 
heart infrastructure, roads, bridges, water systems, septic 
systems. The donors that I speak to, whether they be 
individuals, families, foundations, or even corporations 
fundamentally share a view that they think those are 
governmental functions. And so the interest that they have 
would be more in things that they see as, you know, on trails, 
around improving historic buildings, the work done here on the 
Mall that David Rubenstein has been a big supporter of. Lincoln 
Memorial, Washington Monument, et cetera, are great examples of 
where we find philanthropists that are interested in those 
kinds of enhancements and restoration projects to parks. We 
have not found interest in helping to repave roads or do water 
systems. It's just, it seems to be a gap between what people 
want to do.
    Senator Daines. You don't have, like, a ``fix the 
wastewater system campaign'' then, huh?
    [Laughter.]
    Mr. Shafroth. We haven't had a lot of luck in that.
    Senator Daines. You could use some help, it sounds like.
    Mr. Shafroth. Yeah, we could.
    Senator Daines. Alright. Okay. Thank you.
    I am out of time.
    The Chairman. Thank you, Senator Daines.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    I note that Mr. Regan mentioned that the use of fee 
revenues for just routine and cyclical maintenance needs to be 
streamlined and that those decisions should be made at the 
local level.
    I wanted to get a commitment from Ms. McDowall that you 
will get back to this Committee as to how we can make some 
changes to this process so that we can streamline and get the 
resources that are necessary to the parks in a more timely 
manner. Can you make that commitment?
    Ms. McDowall. Yes, we can.
    Actually, there were policy changes in the recreation fee 
program in the last number of years that have done away with a 
prohibition on operational expenses out of recreation fees. The 
Park Service policy does allow parks to spend funding on those 
operational requirements.
    Senator Hirono. So, Mr. Regan, since those changes have 
been made are you saying that there is still more that needs to 
be done to streamline these processes?
    Mr. Regan. There are. Thank you for the question.
    Senator Hirono. Okay, well, I will follow up with you.
    Mr. Regan. Sure.
    Senator Hirono. As we evaluate different ways to cut the 
deferred maintenance backlog, I want to note that the oil and 
gas industry gets about $5 billion a year in tax breaks. It is 
set in statute. They get this amount year after year, come hell 
or high water.
    And at a time when there is recognition of the dangers 
posed by global warming and climate change, to encourage more 
drilling for oil and gas on public lands and offshore to pay 
for park deferred maintenance is, in my view, shortsighted and 
not the way to go. I just wanted to point that out because at a 
time when we ought to be moving away from fossil fuel 
development and stop giving the fossil fuel industry $5 billion 
every single year, think what we can do with $5 billion a year 
for deferred maintenance. Something I wanted to point out.
    Mr. Ring, in your testimony you mentioned that a large land 
acquisition backlog exists at the NPS. While I recognize that 
yes, we should care about the maintenance of what we already 
have, there is still this concern about, for example, funding 
the Land and Water Conservation Fund in an authorized way 
because it has never received the kind of funding that it 
should get. It is authorized at $900 million a year and, unlike 
the oil and gas industry, that is not forthcoming.
    I recently went to the Big Island and participated in a 
small celebration of the acquisition of land for the Island 
Forest At Risk proposal. This was land that the landowner had 
been waiting, literally, for years and years and years to be 
acquired through the Land and Water Conservation Fund and this 
is land that would have otherwise gone into development.
    So I think there needs to be a balance between acquiring 
these kinds of lands for preservation for future generations 
and, of course, the issue of the deferred maintenance. Would 
you agree with that, Mr. Ring?
    Mr. Regan. Thank you, Senator.
    Certainly. I think there is a place for acquisition and the 
LWCF does provide, of course, funding for the Federal 
Government to acquire inholdings at times that reduce 
management costs. So, that's certainly a good thing, but I 
think that----
    Senator Hirono. Okay. I was asking Mr. Ring.
    Mr. Regan. Oh, I'm sorry.
    [Laughter.]
    Senator Hirono. Because you mentioned the importance of 
Land and Water Conservation Fund.
    Mr. Ring. I wholeheartedly agree. It's a concern. And I 
would just say that in the search for a solution to the 
maintenance backlog, to find a program and a source that gives 
it a steady and permanent level of funding, I think, 
understanding and learning the lessons of the Land and Water 
Conservation Fund program are very important.
    And it may be that at the same time the maintenance backlog 
is addressed legislatively, the problems of the promise of the 
LWCF and then the subsequent lack of funding of it could be 
cured as well.
    Senator Hirono. I totally agree with that.
    Ms. McDowall, I think, would acknowledge the importance of 
NPS reliance on partnerships with a number of groups and 
organizations, including educational institution incentives to 
carry out cooperative agreements and technical assistance, et 
cetera. And Mr. Ring notes in his testimony that these 
partnerships are now being threatened by a new process 
established within the Department of the Interior that creates 
an unnecessary and unwise layer of political screening of all 
grants and cooperative agreements, and that there is a 
political litmus test to the continuance of MOUs and these 
kinds of agreements. Now the impact of these new requirements 
do not help in terms of support for our parks.
    Mr. Ring, did you want to elaborate a little bit more on 
your concern about what you characterize as political screening 
that is necessary?
    Mr. Ring. Again, I'd make two comments.
    One is the level of centralization of approval of each and 
every partnership going into the Secretary's office of the 
Department is a level of centralization that takes time, adds 
layers and oftentimes results in missed opportunities. Our 
partners who get frustrated and walk away. Equally, the level 
of, it is unclear to us, what the screening is because there's 
not an established set of criteria, as Ms. McDowall began to 
identify with the prioritization of the backlog projects.
    I think an objective set of criteria on how a partnership 
benefits the park should be the only set of criteria used in 
entering into a partnership for the benefit of the parks. And 
with such an established set of criteria, that the authority to 
enter into these partnerships could be decentralized to the 
field level and function a lot more effectively and a lot 
quicker.
    Senator Hirono. Thank you for pointing out these additional 
screenings.
    I am going to want to follow up with you, Ms. McDowall, but 
I am out of time, as to why these new screenings were 
implemented and to the extent that they seem to be motivated by 
political considerations.
    I would be very much interested in how you would justify 
it.
    Thank you.
    The Chairman. Thank you, Senator Hirono.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.
    I appreciate all of you being here.
    Mr. Shafroth, you mention that the National Park Foundation 
provides a margin of excellence and that really makes a 
difference in terms of developing some of these projects 
through philanthropic resources on our national parks.
    One that we are working on in my state is for the Theodore 
Roosevelt National Park, you are probably aware of it, and that 
is a library for Teddy Roosevelt who ranched there and was out 
there before he became President. That obviously had a huge 
impact on his life and so forth. We are trying to put together 
a coalition to develop that library and we have approved state 
funding for it, and we are talking to the Park Service and 
Department of the Interior about funding for it as well.
    How would you recommend that from your perspective and in 
terms of your ability to help partner with resources? What role 
can you play in helping us accomplish that?
    Mr. Shafroth. Senator Hoeven, thank you for the question.
    Senator Hoeven. I would guess our Governor, maybe, has been 
in contact with you on this subject as well.
    Mr. Shafroth. Well actually we're all actually knee deep 
into it at this point, I would say.
    Senator Hoeven. Knee deep.
    Mr. Shafroth. Knee deep.
    Senator Hoeven. Okay, well we want to get you like----
    Mr. Shafroth. I understand. I understand that side of 
information of the question.
    We have been, actually, I have been out there a couple of 
times already and I had a number of conversations with Governor 
Burgum.
    Senator, I feel like the opportunity here is unique in that 
this is, I gather, the number one tourist attraction in the 
State of North Dakota. It's an amazing landscape. The Badlands 
are, if you haven't been there, I would suggest everybody go 
there. There's a powerfulness about them that you just have to 
be in there for a bit and you know what we're talking about. 
And obviously, it affected Teddy Roosevelt in a big way.
    But the combination of the Theodore Roosevelt Medora 
Foundation, the Theodore Roosevelt Presidential Library 
Foundation and the National Park Foundation is a triumvirate of 
non-profit organizations working with the state and with the 
Park Service. I think there's a once in a lifetime opportunity 
to do something really significant here to tell the story of 
Teddy Roosevelt in a profound way, both in terms of how he 
lived his life and where he lived his life and to do the kind 
of thing that a Presidential library can only do in terms of 
the depth of the interpretation. So I think we're all in. One 
of our board members has made a significant pledge to begin to 
do some work there on behalf of the Foundation. I look forward 
to any of your thoughts and ideas about how we can do even 
more.
    Senator Hoeven. Well, we appreciate your involvement, and 
we are very serious about putting this together, including with 
state resources.
    Mr. Shafroth. Right.
    Senator Hoeven. We want to work closely with you because, 
as you say, it is an incredible attraction already with Medora 
as well as the national park. I sponsored legislation, of 
course, the bison is now our national mammal and they roam free 
and wild there in the park.
    There is just this confluence of things coming together, 
and we really do need your help to make it happen and it is an 
amazing project.
    Mr. Shafroth. Looking forward to doing it.
    Senator Hoeven. We appreciate it. Thank you very much.
    Ms. McDowall, talk for a minute. One of the things that has 
come up is the road maintenance, a number of people have 
mentioned it, and that is what we see too. Where are you as far 
as FY'18 in starting to make some progress on some of those 
basic infrastructure issues, primarily the road reconstruction 
and updating issue?
    Ms. McDowall. Roads in general or----?
    Senator Hoeven. Yes, just roads in the parks in general.
    Ms. McDowall. Okay.
    Senator Hoeven. For us that is a real issue in the 
Roosevelt National Park.
    Ms. McDowall. So I have to apologize. I don't have the 
number in front of me that is going for roads specifically in 
FY'18, but I would be happy to provide that number for the 
record.
    Senator Hoeven. I guess my question is, are you going to 
start to cut into that backlog a little bit and what are you 
doing besides just traditional funding to try to accomplish 
that upkeep maintenance for basic infrastructure given the 
backlog?
    Ms. McDowall. So besides just from regular appropriated 
funding there are a couple of things that the Park Service is 
doing to address DM, not just in roads, but across the board.
    The first is really, you know, not to make the situation 
worse. The Department has a policy of not building new things 
that we don't have the operational funding to maintain into the 
future. The Department discourages Congress from creating new 
units that might come with significant additional facilities, 
responsibilities that we can't afford. We are better 
prioritizing the funding that we do have through various 
strategies to make sure that that funding is focused on higher 
priority assets, and that investments are, again, made in 
facilities that we know that we can maintain.
    Partnerships are also a big element of it. I spoke earlier 
about our Centennial Challenge program which matches private 
and federal dollars. Philanthropy is a key part at the park 
level, specifically, in allowing us to address DM. And then, 
the Department has an administrative proposal in the FY'19 
budget for the President's, excuse me, for the Public Lands 
Infrastructure Fund which could provide up to $18 billion over 
10 years for deferred maintenance and facilities needs.
    Senator Hoeven. Well, I see my friend, the Senator from 
Ohio is here.
    What about diverting funds from the Ohio parks to North 
Dakota? Is that a possibility?
    [Laughter.]
    I am sure he would be supportive.
    Okay, kidding.
    Thank you, Madam Chairman.
    The Chairman. I think we will turn to Senator Portman for a 
rebuttal.
    [Laughter.]
    Senator Portman. Yes, all I can say is North Dakota already 
gets more than their share per capita.
    [Laughter.]
    Well, thank you all very much for being here and I was here 
earlier, as you know, a couple times. I had to run in and out, 
but I really enjoyed the testimony.
    The deferred maintenance backlog is something we all care 
deeply about and I appreciate the Chair and Ranking Member 
focusing on this during its second hundred years. This is our 
biggest challenge, as I see it, and it is huge.
    We have a number of park units in Ohio, as my colleague 
from North Dakota has indicated. One is Cuyahoga Valley 
National Park, the number 11th most visited park in the nation, 
and we are very proud of that.
    We don't have as many parks as North Dakota, but even with 
us that $12 billion maintenance nationally means in Ohio it is 
about a $75 million backlog. So it is a big deal which is one 
reason we did pass, as you indicated, Ms. McDowall, this notion 
that we should be able to get more money through a Centennial 
Challenge and also to give the Foundation the ability to have 
an endowment. Senators Murkowski and Cantwell were very 
involved in this. We passed our National Park Centennial Act at 
the end of December 2016, and then we also provided the Park's 
Foundation with the endowment to start reducing the backlog. 
And it has helped.
    We have been getting consistently about $20 million in 
appropriations every year. This last year in the 2018 Omnibus 
spending bill, just a few weeks ago, we got the $23 million.
    We have leveraged a total of about $107 million in federal 
dollars into an additional $125 million in non-federal funds. 
In other words, better than one-to-one. So we have done better 
than the one-to-one match that we set out to do, and that is 
important.
    Just briefly, Will, why don't you talk about what the 
endowment has meant for you all and how you have used the 
endowment to reduce the backlog?
    Mr. Shafroth. Thank you, Senator Portman.
    And to be clear, Senator Portman was the last man standing 
at 6:38 in the morning when the bill passed.
    [Laughter.]
    We thank him, especially for staying up all night on our 
behalf.
    So the endowment. We've actually received $12.5 million to 
date, Senator, from the endowment. And we are working hard as 
the bill and our understanding was to match that. The whole 
point is that this is a piece of what we want to have on the 
endowment. We're trying to raise private money around that. 
We've begun to do that.
    Actually, our planned gifts have increased dramatically 
during the Centennial Campaign and more baby boomers are 
looking for ways in which to give their money away upon their 
death or even before then to invest in our national parks. So 
we see it as a catalyst for the kind of work that we want to 
do.
    Senator Portman. That is great. We love the private dollars 
and leveraging it.
    So the Centennial Act annual appropriations are good, but 
alone, not enough. I mean, we just have these huge numbers we 
talked about today. So we have to do more.
    Over the last few years I have worked with Mark Warner to 
put together a bipartisan proposal to find additional funding 
streams, and that is the legislation that many of you have 
helped us with which enables us to take some of the oil and gas 
revenue and put it toward maintenance backlog projects. It is 
called the National Park Service Legacy Act. We have 19 co-
sponsors. It is bipartisan. We are encouraged by this hearing 
because, thanks to the Chair and Ranking Member, we are getting 
more emphasis on it.
    I noticed that the Administration also supports this in 
terms of putting more money against it. Their proposal is a 
little different. It is in their budget. It does not provide a 
stable guaranteed funding source as we do because we just 
stipulate there will be funding that will be coming out of 
this. It does not affect Land and Water Conservation Fund, Mr. 
Ring will be happy to hear, but it does guarantee the funding. 
And I noticed earlier, Ms. Leonard, you talked about the need 
for consistent, certain funding. Mr. Ring, you talked about 
dependable and sustainable funding in your testimonies. And 
that is what our bill does.
    The funding in the President's proposal is only there if 
the estimates are wrong, you know. The Treasury makes estimates 
of how much revenue is going to come from oil and gas, and if 
their estimates are wrong, then there could be some funding for 
this. If the estimates are wrong on the upside, there will be 
funding. If they are on the downside, there will be no funding. 
If it is accurate, if the estimate is accurate, there will be 
zero funding. So, just so we know, that is the difference 
between our bill and the Administration's bill.
    I just ask you about this--
    Mr. Berejka, would you believe stable funding resources 
from Congress is an important element in leveraging private 
investment to address the backlog?
    Mr. Berejka. Thank you, Senator.
    From the REI perspective, as I mentioned in testimony and 
other comments, we see outdoor recreation as a growth sector, 
but that growth sector, that growth, cannot continue if the 
support for our national parks, in particular, is inconsistent.
    Senator Portman. So you think it ought to be consistent.
    How about you, Mr. Ring?
    Mr. Ring. I would agree that it's incredibly important that 
the source of federal funding to deal with the infrastructure 
of the parks be adequate and permanent and on top of which the 
annual appropriations associated with operating and maintaining 
those facilities be adequate as well, unless we expect to see 
another backlog created with the facilities that we're building 
with these funds.
    Senator Portman. Well, look, I appreciate it.
    My time is expired.
    What Ms. McDowall said earlier, Mr. Shafroth, Mr. Berejka, 
Ms. Leonard, Mr. Regan, Mr. Ring, is that you guys are looking 
for stable funding, certainty. I would just suggest we have a 
bipartisan proposal to do that, and we ought to move forward 
with it.
    Thank you.
    The Chairman. Thank you, Senator Portman.
    Senator Alexander.
    Senator Alexander. Thank you, Madam Chairman.
    While Senator Portman is still here, I would like to 
congratulate him for his work on his proposal and its 19 co-
sponsors. It is a terrific idea because, as I look at our 
backlog maintenance, in parochial terms, we have the Great 
Smoky Mountains, 11 million visitors, $20 million appropriation 
every year but a $220 million backlog. We have our Look Rock 
Campground closed because there is not enough money to open it. 
Half our backlog, at least, is roads, maybe more than half in 
the Smokies. So there are ten times the amount of appropriation 
that we get every year in our backlog, or four times the amount 
of appropriation that the national parks get every year in the 
backlog, and I see no way that we are going to make a serious 
dent in the backlog unless something like Senator Portman's 
bill passes.
    I have introduced, with Senator King, Senator Heinrich, and 
Senator Tillis another bipartisan bill which I hope this 
Committee will also consider at the same time. I did it at the 
request of Secretary Zinke. So the Administration does support 
that bill.
    I agree that we want funding to be as stable as we can, but 
we also want funding. And to get a bill passed, we will have to 
get the President to sign it.
    My hope would be that the Chairman can take both those 
bills and let the Committee look at them very carefully and try 
to deal with that this year while we have the President's 
interest and the Secretary's interest, Senator Portman's bill 
with 19 co-sponsors and this other bill as well.
    It would be good to have a certain level of mandatory 
funding but, you know, it would have been good to have that for 
the Land and Water Conservation Fund in 1962. We never got it. 
I think if we can get it, fine. If we can't get it, let's take 
what we can get. And if we can get several billion dollars over 
the next several years, even if it is up a little one year and 
down a little the next year, that is several billion more 
dollars than we otherwise would get. So I hope this is 
something we can work on together and succeed in.
    Ms. McDowall, would you agree that unless we take some sort 
of extraordinary action, like the effort described by Senator 
Portman's bill or the bill like that Senator Zinke supports and 
has asked us to introduce, that it would be hard to see how we 
could deal with the existing deferred maintenance backlog in 
the National Park System?
    Ms. McDowall. So, $11.9 billion is a big number as everyone 
on this Committee has mentioned in various ways, and I think 
Secretary Zinke's proposal recognizes that that is a big number 
in looking at something like a public lands infrastructure 
fund.
    I would say that the proposal is still being crafted and 
the Department would be very happy to work with the members of 
this Committee to turn it into the best product possible and 
would be interested in all of your various perspectives.
    Senator Alexander. Well, thank you for that.
    I would say that while we have an Office of Management and 
Budget that is willing to allow the use of mandatory funding 
for deferred maintenance on the National Park System, and 
Senator Portman knows a little bit about that office having run 
it at one time. I think we ought to grab it while we can.
    So I would hope, Madam Chairman, that this is a subject 
that we have enough Senators interested in on this Committee 
and in the Congress that we ought to try to address this year, 
if we possibly can.
    Thank you for your time.
    The Chairman. Thank you, Senator Alexander.
    I want to thank both of you gentlemen for your leadership 
on this very important issue, how we address the maintenance 
backlog that we recognize as a Committee, but really, as 
members of Congress, is so significant and how we get in front 
of it.
    As Chairman of the Interior Appropriations Subcommittee and 
I know, Senator Alexander, this was your Subcommittee a few 
years ago just before I took it over, we recognize we have good 
faith efforts as appropriators trying to allocate sufficient 
revenues to just try to get ahead, but we just can't even get 
ahead.
    And so, how we are creative, how we are, we think, a little 
bit out of the box in terms of how to address this in a way, in 
a manner that is meaningful and significant is going to be very 
important.
    I mentioned in my opening statement we will have an 
opportunity to schedule before, probably the Subcommittee, but 
if not the Subcommittee, then the full Committee, a review of 
both of the proposals that are out there, as well as anything 
else that might be there because I agree with you, Senator 
Alexander. I think there is an imperative out there. I think 
that this is a priority of the Secretary's. He has made that 
clear. And I think we all recognize that while we all know and 
love the parks in our areas and are very passionate and perhaps 
parochial about that, that collectively we know that this is a 
system of parks and we want to do right by all of them.
    I can't flex my muscle to say I want to prioritize 
everything so that we fix Polychrome Road and we also fix the 
water and the sewer issues in my park ahead of your park. Don't 
tell people back home that I said that I am not going to do 
that, because I am going to advocate that we address these, but 
it has to be a broader, really more comprehensive strategy. So 
I thank you both for your initiative with that.
    And also, with working with us previously in setting forth 
the endowment, reaching out to other areas, not just the 
government sector but what we can do more to bring in all 
Americans to support our parks, I think it is clear that these 
are our treasures and we want to be able to support them.
    I do think, Mr. Shafroth, we need to be a little more 
creative. You see these signs on the roads saying, this section 
of the road is cleaned up by the Fairbanks Rotary Club. Maybe 
we need to have little signs on, I don't know, your wastewater 
treatment building that says this is brought to you by Senators 
Portman and Alexander, personally.
    [Laughter.]
    I don't know.
    But it does cause me to worry that some of the basic needs, 
the invisible issues, as Ms. Leonard has pointed out, the 
underpinnings that make our parks a livable place, that we are 
not able to garner that support that we would want.
    I would note that as we talk about some of these ideas, as 
we talk about how we prioritize deferred maintenance, cyclical 
maintenance, what authorities we give to the local 
superintendents for use of fees or revenues that are collected 
there versus everything going back to Washington, DC, and then 
being redirected to the respective areas or respective parks. 
But we are talking about this at a time that we do not have a 
Director of our national parks. I know that the Department of 
the Interior, the Secretary, is looking to fill this position, 
but I would urge, and if you can take the message back, Ms. 
McDowall, I would urge that the Administration place a priority 
on this nomination, just as they are clearly placing a priority 
on how we are going to address the backlog because we on the 
Appropriations Committee can figure out how to direct dollars.
    We, as an authorizing committee, can figure out different 
strategies but you need to have the implementor. You need to 
have the Director. I would hope that we would be seeing a name 
come forward soon. I do think that that is important.
    I have a whole host of different questions that I will ask 
folks for the record. Although, I think between the Committee 
members that were here, we covered a lot of ground in terms of 
the ideas.
    But I just want to throw a little bit of a wild card out 
there, and this will be directed to you, Mr. Berejka. When we 
think about different mechanisms for funding, I mean, 
obviously, Interior looked at raising the fees for individuals, 
families, seniors, kids, to come in, and laid out a pretty 
aggressive fee schedule that nobody liked. They have retracted 
that. But fees clearly are one avenue that you can bring in 
more revenues, but not enough to correct the maintenance 
backlog. I think we all recognize that. But fees do help.
    But I thought about the role that Pittman-Robertson model 
follows. It basically uses the excise tax that is levied on 
firearms, on ammunition, on archery equipment, to fund wildlife 
restoration projects. In fact, in Alaska I am told that the 
Pittman-Roberts dollars that we have now that are directed to 
our state, have been really quite important, and we have seen 
an increase in those and that helps us with the wildlife 
restoration projects.
    You have indicated in your testimony today, you know, the 
stepped-up activity in the outdoor industry and what it is 
meaning from a revenue perspective. And that is good. I think 
that is important that we are seeing it.
    But do you think that REI or others that benefit from 
access to our federal lands would be open to a small fee or a 
tax on outdoor retailers to help sustain the parks? Is this 
something that has been out there for discussion, similar 
again, to the Pittman-Robertson model?
    Mr. Berejka. Thank you for the question and the 
observation, Chair Murkowski.
    For sure, the question you raise has been whispered about 
for many years. I have several observations, and I can go deep 
and long on the topic. And so, maybe the depth and the length 
is better saved for a conversation with you and/or your staff. 
But a couple high-level observations.
    One, the excise taxes on what we refer to as hook and 
bullet, as my understanding, they came into being in the '30s 
and '40s when fish stocks and the wildlife were at risk of 
being overhunted or overfished. And so, the fees were about, 
assessed against those who were interested in putting back into 
the environment or preventing the overfishing and overhunting 
of certain wildlife.
    When Americans at large go into the outdoors, I don't think 
they're necessarily overusing the dirt that they walk on, so 
you don't have the same question around extraction of a 
resource as you have in the hunting and fishing community. So 
that's one observation.
    A second observation is if you unpack the economic data 
you'll find that the outdoor recreation economy as an ecosystem 
is uniquely main street and small business. It has spread an 
inch deep and a nation wide. For one example, REI is considered 
a large player in the outdoor recreation sector. Our revenue is 
$2.6 billion. So as a large player, our market share is less 
than one third of one percent. There are lots and lots and lots 
of small businesses that would be impacted by a proposal such 
as the one that you highlight.
    And importantly, if you also parse the data, 80 percent of 
the revenue in outdoor recreation is actually in trips and 
travel. So people who sell gear, who sell apparel like we do, 
we're only 20 percent of the total.
    If you actually wanted to think about it as a sector that 
is hundreds of billions and distribute the fee, if you will, 
equitably, you'd be again taxing hotels, lodges, who themselves 
already face an extraordinary amount of taxes on top of their 
hotel bills.
    So, you know, it's a more, I think it's a more complicated 
question than it might seem at the surface.
    I just leave with one point, one final point, which is, you 
know, in most states they don't tax milk because milk is good 
for you and we feel that the outdoors is good for you. So 
there's no reason to make it harder for people to acquire the 
things that make their lives better.
    The Chairman. Well, I appreciate your comments. It is worth 
asking, I think, again, these are part of a broader discussion 
about how we can address the issues that we are facing.
    There was not much discussion by any of you about the fee 
increase that has been proposed. Perhaps if the old one was 
still in place that is what this whole hearing would have been 
about, because I have yet to find anybody that supported it.
    Although, I have heard from some that they just don't feel 
that we should be increasing the fees because, to use your 
analogy here, we want to get you out in the parks, so we don't 
want to overprice it. I think we recognize that.
    But making sure that we do have an opportunity for people 
to contribute that is certainly fair to look at, because I 
think we recognize that if we fail to do right by our parks, we 
will have those that will say, okay, you encouraged me to come 
and visit my park. I did, and it was not positive. I waited too 
long. The facilities were really miserable. The road was 
horrible. You don't want to have the bad experience.
    Ms. Leonard, in your written testimony and a little bit in 
what you shared with the Committee here today, you outlined 
what happens when the only way into the park is blocked. But 
then, I think there is more to that story. When the person who 
has been blocked on the other side has had their trip delayed 
or inconvenienced in any way because they can't get on the 
other side, they have to pay far more to get out now whether it 
is to fly out, basically to fly out or to wait. And then, they 
don't come back. In addition to not coming back, they tell 
their neighbor.
    So do we have any statistics, Ms. Leonard, in terms of what 
we are seeing regarding the return visitors when the park 
experience, or let's go broader, just the visitor experience, 
has not been what they had dreamed of? I don't know whether 
ATIA tracks that.
    Ms. Leonard. Thank you, Senator Murkowski.
    We do track, through the Alaska Visitor Statistics Program, 
visitor numbers and we know that in that recent study, 60 
percent of visitors said they were very likely or likely to 
return to Alaska within the next five years. Forty percent of 
our visitors have been to Alaska previously.
    But I think to your comment, you touched on it, that in 
marketing to potential visitors and to our visitors that visit 
our national parks in Alaska, we can't always control word of 
mouth marketing. And if their visitor experience is impacted at 
one extreme or one level of, maybe missing connections or not 
being able to go on a bus tour in the park and see wildlife 
viewing, to the other extreme of having safety hazards on that 
road, in particular, will certainly impact their decisions in 
the future to return to Alaska and to other destinations, other 
national parks, I think.
    I think overall, beyond Alaska's national parks which I 
wholeheartedly agree with you, I think, are the best national 
parks in our country, but knowing overall that there are 
deferred maintenance and issues throughout our Park System, 
it's the intrinsic value that we should hold our national parks 
to that standard to having high quality infrastructure and 
services for those memorable visitor experiences.
    The Chairman. Well, I concur.
    I do think that we have some solutions. We have been 
breathing some life into some good things.
    I think the Foundation, certainly, is one that we all want 
to be counting on and that may be where we utilize Foundation 
dollars for these less glamorous but most important and these 
underpinnings of the functionality of our parks.
    But we have a lot of work to do. I think that what we have 
gained here has been helpful for the record.
    I will note that there is a lot going on on the Hill this 
morning, and we have had members popping in and out, but I 
think the fair takeaway is that there is a great deal of 
interest in addressing this.
    I would agree with Senator Alexander, I think we have an 
opportunity with this window to be focused on something that 
can unite us as members of Congress to do something good and 
something positive for our country and the outdoor experience.
    With that, the Committee stands adjourned. I thank you very 
much.
    [Whereupon, at 11:59 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
